Officeof~
.INSPECTOR GENERAL

I
    .... Audit Report




                        October 1996
INSPECTOR GENERAL




 UNITED STATES INTERNATIONAL TRADE COMMISSION

                          WASHINGTON, D.C. 20436

October 18, 1996

TO: THE COMMISSION

I hereby submit an Analysis of the U.S. International Trade Commission's
Privacy Act Systems of Records, Report No. IG-01-97. The Privacy Act of
1974 is the primary federal statute aimed at protecting individual privacy.
It imposes government-wide standards on how agencies collect, maintain,
use, and disseminate personal information. Each agency is primarily
responsible for its own implementation of the Privacy Act in accordance
with agency guidelines prepared by the Office of Management and Budget
(OMS). Most provisions of the Act apply only to agency records maintained
in a system of records from which information is retrieved by name or other
individual identifier.

The Commission has Privacy Act notices for five systems of records. Four
of these systems date from 1975. The fifth system, covering inspector
general records, was added in 1990. All notices are out of date in some
respect. The Commission began to prepare notices to amend the existing
systems and add two systems in 1996. Both the existing and proposed
new system notices were the subject of this analysis.

The objective of this analysis was to conduct a comprehensive and critical
review of the Commission's implementation of the Privacy Act. Specific
objectives included reviewing existing Privacy Act notices and proposed
revisions to determine which systems of records should be retained,
established, or reorganized; identifying additional systems of records that
need to be established; examining system notices for content, format, and
degree of specificity; and determining whether the Commission is in
compliance with major provisions of the Act.

This analysis was conducted by Robert Gellman, Privacy and Information
Policy Consultant. He found that existing Commission notices contain
outdated and/or extraneous information. Common elements of the notices
also contain unnecessary differences. In addition, the Commission's
Privacy Act rules, which are separate from the notices, are outdated and
need to be revised to be more consistent with the Privacy Act. Several
Commission forms do not include required Privacy Act notices. The
Commission is in compliance with the Act's requirement for maintaining an
accounting of disclosures and with OMS requests for data for Privacy Act
reports. However, the Commission did not comply with OMS requirements
for regular reviews of Privacy Act activities.

Gellman concurred with the proposed notices that would have deleted one
of the existing systems of records, updated the other four systems, and
added two new systems. He also identified five additional systems of
records that we believe should be established, despite some uncertainty
whether the records qualify as Privacy Act systems. He also recommended
that Commission Privacy Act notices include a reference to government-
wide system notices applicable to Commission records.

The deficiencies at the Commission are at least partially due to the limited
awareness of ·the Privacy Act and its requirements by senior Commission
staff, which is not unusual for an agency that conducts no official activities
with individuals and engages in little routine Privacy Act business. Until
several years ago, the Commission never received a Privacy Act request for
access. In addition, the Commission's Privacy Act Officer, the Director of
Personnel, understandably has a limited view of his responsibilities which
are not defined in federal regulations or Commission policy.

This report documents that the Commission is not in compliance' with
several requirements of the Privacy Act. The Act includes a criminal
penalty for willfully maintaining a system of records without meeting the
notice requirement, but there has never been a prosecution under this
section. In theory, the Commission's failure to have a notice for all systems
of records or accurate notices for existing systems could give rise to liability
under the Privacy Act provisions for civil remedies. However, it seems
unlikely that any individual could successfully demonstrate the adverse
effect that is an essential requirement of a lawsuit. Potential liability can
be avoided altogether by updating and republishing Privacy Act system
notices and by putting proper notices on forms.

In the draft report, we recommended that the Director of Personnel, in his
current capacity as the Commission's Privacy Act Officer, coordinate with
the appropriate Commission officials and oversee the implementation of the
actions needed to correct the above deficiencies. These actions are stated
throughout the report and summarized on page 23.

In his response, the Director of Personnel stated that the threshold issue of
deciding who should be the Privacy Act Officer should be addressed first
so that whoever is eventually charged with administrative responsibility will
have the benefit of participating in the program's implementation. Further,
he reported that the Office of General Counsel work to redraft the
Commission's systems of records and revised rules is in an advanced stage,
which will accomplish the majority of the needed actions identified in our
report. His response is presented as an appendix to this report.

The Chairman concurred with the Director of Personnel's response and
formed a group under the chairmanship of the Director of Administration to

                                       2
undertake a review to determine where Privacy Act administration should
be assigned. The group is to forward a recommendation to the Chairman
by October 31, 1996. Accordingly, we revised the report to recommend
that the Director of Administration, in his capacity as chairman of the above
mentioned group, notify Committee members of the need to continue
working on implementation of the recommendations, and to notify the
Privacy Act Officer, when one is designated, of his or her responsibility to
respond to the recommendations in the final report. He agreed to take
these actions.




                                          L~~~
                                            Inspector General




                                      3
                                           TABLE OF CONTENTS

I. Introduction                                                                                                                                                             1
        A. Objectives                                                                                                                                                       1
        B. Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..                                                                 2

II. Systems of Records Notices                                                                                                                                              3
        A. Existing Systems: Retain, Eliminate, or Reorganize?                                                                                                              3
               1. Employment and Financial Disclosure Records                                         .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ..    4
               2. Budgetary and Payroll-Related Records . . . . .                                     .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ..    4
               3. Time and Attendance Records . . . . . . . . . . .                                   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ..    4
               4. Grievance Records . . . . . . . . . . . . . . . . . . .                             .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ..    4
               5. OIG Investigative Files General and Criminal                                                                                                              4
        B. Proposed New Systems                                                                                                                                             5
               1. Telephone Call Detail Records                                                                 . . . . . . . . . . . ..                                    5
               2. Security Key Use Records . . . . . . . . . . . . . .                                . . . . . . . . . . . . . . . . ..                                    5
        C. Additional Systems of Records                                                                                                                                    6
               1. Security Officer Control Files. . . . . . . . . . . .                               . . . . . . . . . . . . . . . . ..                                    6
               2. Library Circulation Records                                                                                                                               7
               3. Parking Records. . . . . . . . . . . . . . . . . . . . .                            . . . . . . . . . . . . . . . . ..                                    8
               4. Mailing List . . . . . . . . . . . . . . . . . . . . . . . .                        . . . . . . . . . . . . . . . . ..                                    8
               5. Congressional Correspondence Records                                                                                                                      9
        D. Possible Systems of Records . . . . . . . . . . . . . . . . .                              . . . . . . . . . . . . . . . . ..                                    9
               1. Activity Accounting                                                                                                                                       9
               2. Web Page . . . . . . . . . . . . . . . . . . . . . . . . .                          . . . . . . . . . . . . . . . . ..                                    9
               3. LocatorlTelephone Records . . . . . . . . . . . . .                                 . . . . . . . . . . . . . . . . ..                                    9
               4. Administrative Protective Orders                                                                                                                         10
        E. Government-Wide Systems . . . . . . . . . . . . . . . . . .                                . . . . . . . . . . . . . . . ..                                     10
        F. Accuracy of System Notices: General Observations                                                                                                                11
               1. Common Elements . . . . . . . . . . . . . . . . . . .                               . . . . . . . . . . . . . . . ..                                     11
               2. Structuring Common Routine Uses . . . . . . . .                                     . . . . . . . . . . . . . . . ..                                     12
               3. Adequacy of Existing Common Routine Uses                                                                                                                 13
               4. Internal Routine Uses                                                                 . . . . . . . . . . . . . . ..                                     13
               5. Descriptions of Policies and Practices. . . . . .                                   . . . . . . . . . . . . . . . ..                                     13
        G. Accuracy of System Notice - Specific Comments                                                                                                                   15
               1. Employment and Financial Disclosure Records                                         .   .   .   .   .   .   .   . .     .   .   .   .   .   .   ..       15
               2. Budgetary and Payroll-Related Records . . . . .                                     .   .   .   .   .   .   .   . .     .   .   .   .   .   .   ..       15
               3. Time and Attendance Records. . . . . . . . . . .                                    .   .   .   .   .   .   .   ..      .   .   .   .   .   .   ..       17
               4. Grievance Records . . . . . . . . . . . . . . . . . . .                             .   .   .   .   .   .   .   . .     .   .   .   .   .   .   ..       17
               5. OIG Investigative Files General and Criminal                                                                                                             17
               6. Telephone Call Detail Records                                                             . . . . . . . . . . . . ..                                     17
               7. Security Key Use Records . . . . . . . . . . . . . .                                . . . . . . . . . . . . . . . ..                                     18

III. Other Privacy Act Requirements                                                                                                                                        18
        A. Privacy Act Rules                                                                                                                                               21
        B. Accounting .... . . . . . . . . . . . . . . . .        .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ..       18
        C. Forms. . . . . . . . . . . . . . . . . . . . . . . .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ..       20
        D. Computer Matching . . . . . . . . . . . . . .          .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ..       21
        E. Reporting and Reviewing Requirements.                  .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ..       21
         F. Personnel Familiarity with the Privacy Act. . . . . . . . . . . . . . . . . . . . . . . ..                   22
         G. Vulnerability Assessment for Litigation . . . . . . . . . . . . . . . . . . . . . . . . . ..                 23

IV. Summary of Recommendations                                                                                           23

Attachment: Suggested Common Routine Uses                                                                                25

Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..   29

Appendix: Final Response to Inspector General's Draft Report: Analysis of USITC's Privacy
Act Systems of Records, September 30, 1996
             ANALYSIS OF THE U.S. INTERNATIONAL TRADE COMMISSION'S
                       PRIVACY ACT SYSTEMS OF RECORDS

I. Introduction

        The United States International Trade Commission (USITC) is an independent federal
agency. As with other federal agencies, the Commission is subject to the Privacy Act of
1974.' The Privacy Act is a general privacy and records management statute establishing
rules and procedures for the collection, maintenance, use, and disclosure of personal
information about identifiable individuals. Most provisions of the Act apply only to agency
records maintained in a system of records from which information is retrieved by name or other
individual identifier.

       Major provisions of the Privacy Act require agencies to:

              • limit disclosure to those expressly authorized in the statute'' or through routine
       uses" defined by the agency;

                  • maintain an accounting for all disclosures:"

              • allow the subject of a record to have access to and to request amendment of
       the record:"

               • inform each individual asked to supply personal information of the purpose and
       basis for the request:"

                  • publish descriptions of each agency system of records in the Federal Register; 7

                  • promulgate rules to carry out the provisions of the Privacy Act:"

                  • establish an administrative mechanism to oversee agency computer matching
       activities."


A. Objectives

       I reviewed Commission's compliance with major requirements of the Privacy Act of
1974 and ongoing activities to update existing system of records notices. Specific objectives
were to:

             • review existing Privacy Act notices and proposed revrsions and determine
       which systems of records should be retained, established, or reorganized;


               • for systems that do not need to be retained, determine whether any other
        action needs to be taken, such as adopting another agency's system notice;

               • for systems that do need to be retained or established, determine the accuracy
        and/or propriety of all information in the notice;



                                                   1
             • identify additional systems of records that need to be established;

             • compare system notices for content, format, and degree of specificity;

             • determine whether the Commission is in compliance with major provisions of
      the Act;

            • identify agency requirements in OMB Circular A-130 and determine whether
      the Commission is in compliance and how long the Commission was not in compliance;

             • conduct a vulnerability assessment of potential litigation challenges under the
      Act;

            • determine whether the contract with the Commission's security contractor
      makes provisions of the Act binding on the contractor and its employees;

             • evaluate whether Commission personnel are familiar with the requirements of
      the Act and conduct a vulnerability assessment of potential litigation risks;

             • review the circumstances of three open investigations involving potential
      Privacy Act violations.

B. Scope and Methodology

       I conducted a review of the Commission's Privacy Act policies, practices, system
notices, and rules during July and August 1996 at USITC headquarters in Washington, DC.
The review was conducted in accordance with generally accepted government auditing
standards. The review included these elements:

             • interviews with managers for each existing and proposed system of records
      and with the Director of the Office of Personnel, Director of the Office of Finance and
      Budget, Inspector General, Director of the Office of Management Services, an Assistant
      General Counsel, Director of the Office of Information Services, Director of the Office
      of Administration, Secretary to the Commission, Director of the Office of Equal
      Employment Opportunity, Director of the Office of External Relations, and Director of
      the Office of Management Services

             • examination of existing and proposed'? Privacy Act system of records notices

              • examination of Commission forms that may be subject to Privacy Act notice
      req uirements

             • examination of Commission Privacy Act regulations.

      This audit relied upon these documents and publications:

             • OMB Privacy Act Guidance, 40 Federal Register 28948 (July 9, 1975);

              • OMB Circular A-130 on Management of Federal Information Resources, 61
       Federal Register 6428 (February 20, 1996) (Appendix I);

                                             2
             • OMB Guidelines on the Relationship of the Debt Collection Act of 1982 to the
      Privacy Act of 1974, 48 Federal Register 15556 (April 11, 1983);

               • Debt Collection Improvement Act of 1996;

              • OMB Guidance on the Privacy Act Implications of "Call Detail" Programs to
       Manage Employees' Use of the Government's Telecommunications Systems, 52 Federal
       Register 12290 (April 20, 1987);

              • OMB Final Guidance Interpreting the Provisions of Public Law 100-503,
       Computer Matching and Privacy Protection Act of 1988, 54 Federal Register 25817
       (June 19, 1989);

              • OPM Republication of Government-Wide System of Records Notices, 61
       Federal Register 36919 (July 15, 1996);

               • Office of Federal Register, Privacy Act Issuances (1993 Compilation) (CD-
       ROM).


II. Systems of Records Notices

        There are Privacy Act notices for five existing Commission systems of records. Four
of these systems date from 1975. The fifth system, covering inspector general records, was
added in 1990. All notices are out of date in some respect. The Commission became aware
of this and began to prepare amended and additional system notices. Both the existing and
proposed new system notices were the subject of this audit.

       The Privacy Act gives agencies considerable discretion in defining its systems of
records. There is no single right way to define systems. Major factors identified in the OMS
Privacy Act Guidelines are the protection of individual rights under the Act the cost and
convenience to the agency. 11

       A. Existing Systems: Retain, Eliminate, or Reorganize?

       1. Employment and Financial Disclosure Records - The Deputy Designated Agency
Ethics Official manages this system of records. The system notice contains financial
disclosure forms required under ethics laws. A government-wide system notice maintained
by the Office of Government Ethics also covers the records.'!

        In the Commission's draft revision of its system notices, this system was to be
eliminated in favor of sole reliance on the OGE system. This is appropriate. There is no need
to maintain a separate Commission system notice. Reasons to maintain a local system are if
it contains additional, locally-provided information not described in the OGE notice or if there
is a need for additional routine uses. I found no evidence that either reason is applicable.

Recommendation

       Eliminate the Employment and Financial Disclosure Records system notice. \



                                               3
       2. Budgetary and Payroll-Related Records - The Office of Finance and Budget manages
these records. The system notice reflects an older, paper-driven system used to create both
budget and payroll materials. There were two overlapping and parallel systems operated at
the same time and by the same office, and this is apparently why one notice covers the budget
and payroll records.

        The two functions continue, but the operations share an increasingly integrated
database. The system should continue to be defined as a Privacy Act system. However, it
is appropriate to change the name. The budget uses and any other functions can be explained
in the purpose section of the notice. There is no need to reference all of the subsidiary uses
in the title. One possible title that might be more descriptive is Pay, Leave, and Travel
Records. This is the name used by the Office of Personnel Management for its internal payroll
system.

       3. Time and Attendance Records - The Office of Finance and Budget also manages this
system, along with an electronic collection system that pulls in records created by each
Commission office. The information is integrated with payroll functions. While it is a matter
of choice, there does not appear to be any good reason to continue treating these records as
a separate system. Most readers would associate time and attendance records with payroll
records. The system can be eliminated and included in a new payroll system notice.

       Because of the role now played by the Department of the Interior (DOl) in managing
Commission payroll records and functions, a new system notice needs to be properly
coordinated with DOl activities. The Overseas Private Investment Corporation (OPIC) is
another agency that uses 001 for payroll services, and OPIC has a system notice that reflects
its connection with 001.'3 That notice is a useful model for the USITC system notice. The
parts of the OPIC notice most worthy of attention are the System Location (including a
reference to the 001 facility) and the Routine Uses.

Recommendation

      Merge the Budgetary and Payroll-Related Records with the Time and Attendance
Records and establish a new system called Pay, Leave, and Travel Records.

        4. Grievance Hecords - The Office of Personnel manages this record system. It is
virtually identical to an OPM system (OPM/INTERNAL-11) covering identical records. The OPM
grievance system is not a government-wide system so a local system notice is essential. This
local system continues in existence and should continue to be defined as a Commission
Privacy Act system.

       5. OIG Investigative Files General and Criminal - The Office of Inspector General
manages this system, which is two systems with a combined system notice. The investigative
operations and supporting files continue largely as described in the notice. The system notice
should be retained. However, the inclusion of two different exempt systems in a single
system notice is inappropriate. Privacy Act exemptions must be system-specific. To be clear,
two separate system notices should be promulgated, one for general records and one for
criminal records." There is a clear basis for concluding that the Office maintains two separate
record systems.




                                              4
Recommendation

      Publish separate system notices to clarify that OIG files are maintained in two distinct \
                                                                                                \
systems.

       B. Proposed New Systems

        Deciding when individually identifiable records form a Privacy Act system of records
can be as much an exercise in epistemology as a mixed question of fact and law. The drafters
of the Act relied upon mainframe computer records or paper records as a model. Today's
modern PC-based and network-resident relational databases make the now ancient legal
distinctions difficult to apply in practice. Disagreements about whether records are a formal
system occur among Privacy Act experts.


        Whether a collection of personally identifiable records qualifies as a Privacy Act system
of records is largely a matter of fact. If records within the control of an agency are regularly
retrieved by identifier, then they qualify as a system. As a result, deciding whether a
computerized database qualifies requires judgment and fact-finding. In a recent D.C. Court of
Appeals decision on the Privacy Act, the court noted that "there is no magic number of
incidental or ad hoc retrievals by reference to an individual's name which will transform a
group of records into a system of records keyed to individuals . .,15

         When there is doubt, the best general advice is to define a Privacy Act system where
individual interests may be adversely affected by the intended uses of the records. Another
test is to look at the systems of records established by other agencies. There is no reason for
the Commission to be a pioneer in defining systems where others have not. In cases where
new forms of records -- such as electronic mail -- have some but not necessarily all of the
characteristics of systems, the Commission may wish to await clearer guidance from the
Office of Management and Budget. The redraft of the Commission's system notices includes
two new system notices.

        1. Telephone Call Detail Records - There is some doubt about whether these records
are a system of records. Telephone numbers produced through the call detail process are not
directly associated with names but with a room number and office. In some -- and perhaps
many -- instances, this is sufficient to identify a particular individual.

       For this reason, and because of the possibility that call detail reporting may be
enhanced in the future, it is advisable to include a system notice. Also, because the records
have been used in taking adverse action against individuals, any doubt should be resolved in
favor of affording maximum protection to privacy interests. Many agencies have system
notices for call detail records.

        2. Security Key Use Records - This proposed new system covers records about the use
of electronic security keys that control access to the building and its corridors. This system
includes surveillance information about agency employees. Although the records are rarely
actually retrieved by identifier, a purpose of the system is to permit tracking of individual
movements when there has been a security breach or theft. While there is some doubt
whether this system must be defined as a system of records, its purpose and potentially
intrusive nature support a conclusion that a system notice should be maintained.

                                               5
       The contract (ITC-CN-96-0001) with the Commission's security system contractor does
not include the standard Privacy Act clause that triggers application of the Privacy Act's
provisions and protections to the records maintained by the contractor. The possibility of
adding a Privacy Act clause had been discussed within the Commission and a decision was
deferred. The contract should be changed to include a Privacy Act clause when next renewed.
The contract is annual, with a series of one-year option years through September 30, 2000.
The next renewal date is October 1, 1996.

       There is a separate security-related collection of personnel records through the sign-in
sheets maintained at the front door to the building. These sheets create records that are
equivalent to those created through the security key system. One response is to establish a
general system of records for Security Access Information. Both the sign-in sheets and the
security key records would be part of this single system of records.I"

Recommendations

       Establish a Security Access Information system notice covering both electronic and \
physical security records.

       Amend the security contract to include the standard Privacy Act clause when the            \
contract is next renewed.

       c. Additional Systems of Records
       It is not uncommon for agencies to discover systems of records that had gone
unnoticed for years. Finding unreported systems is a difficult task. General questions about
record keeping practices inevitably produce negative responses. The only effective method
is to ask offices if they maintain specific types of records based on the practices of other
agencies.

       This method identified several systems of records that the Commission did not publish
as Privacy Act systems. For these new system notices, the recommendation includes
suggestions about routine uses. Defining routine uses is an art and not a science. The
Commission may choose not to employ some recommended routine uses or to add others.
There is no single ,right list of routine uses for a system. New systems notices are
recommended for these records:

        1. Security Officer Control Files - The Director of the Office of Administration is the
Commission's security officer responsible for the granting of security clearances. The process
entails collecting information and fingerprints from applicants for security clearances and
providing that data to investigators from the Office of Personnel Management. After receiving
and reviewing the investigative report, the Commission security officer grants or denies a
security clearance. The files generated by this process are maintained in a safe in the Office
of Personnel, with access limited to the Director of Administration and a staffer in the Office
of Personnel.

       There are some complications. First, the main investigative reports in the security file
are the product of an investigation conducted for the Commission by OPM. The Commission
has a copy of the OPM-created report, and OPM also maintains a copy. The reports in the



                                               6
possession of OPM are part of OPM system notice OPM/CENTRAL-9, Personnel Investigations
Records. The OPM system has been properly exempted from parts of the Privacy Act.

       It is apparently the view at OPM that this notice is adequate to cover its reports in the
hands of other agencies. OPM considers that it is the owner of the records, and it maintains
a central and not a government-wide system notice. The distinction is that a central notice
covers OPM-owned records that may be maintained in other agencies. A government-wide
notice covers records dually owned by an agency and by OPM.

       However, it is not certain that the OPM central notice is adequate for Commission
purposes. If the Commission adds information to the security file other than that described
by OPM, then the OPM notice is surely insufficient. More troublesome is the possibility that
an aggressive requester could argue successfully that an investigative record exempt from
access at OPM might not be exempt in the hands of the Commission. At best, there is some
doubt that a court would accept an argument that a record in possession of the Commission
used by Commission staff to make significant decisions about an employee's status belongs
to OPM and is subject exclusively to the OPM notice.

       The issue is not likely to arise unless an individual refused a security clearance needed
for continued employment challenges the denial. Even if this is not a likely event, there is a
simple way to avoid the possibility of a dispute. The Commission should define its own
Personnel Security Investigative Files and should apply an exemption to the system. Adopting
an exemption requires a formal rule." Exemptions that may be appropriately applied to this
system include (k)( 1) for classified information and (k)(5) for suitability information. Optionally,
exemptions (k)(6) for testing information and (k)(7) for armed services promotion information
could be applied, but they may not be necessary.

        Second, the government's process for personnel security investigations is changing.
Investigative work once done by OPM is now conducted by a private company. In the future,
the Commission may use this company for its security investigations. The Commission may
also use other government agencies from time to time. A new system notice should cover
these possibilities in the general descriptions and routine uses.

Recommendation

      Establish a new system of records called Personnel Security Investigative Files as an             \
exempt system.

        2. Library Circulation Records - The main Commission library has a computer system
that tracks books borrowed by agency employees. The records can be and are retrieved by
name of employee. Twice a year, the library sends a list of each book borrowed to each
employee. This computer system qualifies as a system of records from which information is
retrieved by individual identifier and requires a Privacy Act system of records notice.

        The law library uses a different system for tracking borrowed books that indexes
borrowings by book and not by individual. As a result, the law library svstern is not a system
of records. If the law library procedure changes, it could be a separate system of records or
it could be included in a single Commission-wide library system.




                                                  7
       There is a recommendation below for restructuring the general routine uses for
Commission system notices. The Attachment to this report includes proposed new general
routine uses. Most of these general routine uses are unnecessary for this system. However,
general routine uses E, H, and I might be applied.

Recommendation

       Establish a new system of records called Library Circulation Records.          I

                                                                                     ~
         3. Parking Records - The Facilities Support Division of the Office of Management
Services maintains employee parking records. It manages a contract with Colonial Parking.
Employees submit applications every six months, and the applications are filed alphabetically
in a file folder by the name of the primary carpool member. This is a system of records.

       From the general routine uses proposed in the Attachment to this report, all are
appropriate for this system except D and J. General routine use H covers disclosures to the
parking contractor, and there is no need for a separate routine use. No other routine uses
appear necessary.

Recommendation

       Establish a new system of records called Parking Records.            \
                                                                                '\
       4. Mailing List - The Office of the Secretary maintains a consolidated and computerized
mailing list with approximately 3000 names. The list contains predominantly business
addresses, but perhaps between one-eighth and one-quarter are home addresses. The list
includes telephone numbers as well. The Office uses the consolidated list to address press
releases and other agency publications.

       There is some uncertainty about whether this list qualifies as a system of records.
Information is not retrieved by individual identifier except for the maintenance of the list itself.
Some agencies have defined comparable mailing lists as systems, and others have not.

        The better choice is to establish a system of records for the list. Because these records
relate to non-Commlssion employees, doubts should be resolved in favor of applying the Act
fully.   Also, it is likely that the future will bring changes in the methods used for
communicating with the Commission's constituency. Mail, fax, email, and online access are
likely to be used someday.

       A system notice for the mailing list might anticipate change by providing for the
possibility that contact information beyond name, address, and telephone number may be
collected. This will minimize the need for change in the notice. This system of records
requires no routine uses.

Recommendation

       Establish a new system of records called Mailing List.       \
                                                                        \




                                                 8
        5. Congressional Correspondence Records - The Office of External Relations maintains
a filing system of congressional correspondence alphabetized by name of members of
Congress. This is a system of records. If the file were solely a repository of outgoing
correspondence, it might not qualify. But there is some retrieval of the files by name.

       Many other agencies have defined congressional correspondence records as Privacy Act
systems of records. These systems typically contain incoming correspondence, agency
responses, and internal control documents. If general congressional contact information is
stored in the file, then it too should be included in the system notice.

        Routine uses for a congressional record system are uncertain. Most of the general
routine uses in the Attachment are unnecessary, and some other agencies have few defined
routine uses. One likely routine use would authorize transfer of a record to another agency.
This situation may arise when the Commission receives a congressional inquiry that should
have gone to another agency. A routine use can authorize transfer of the inquiry to another
agency or entity.

Recommendation

       Establish a new system of records called Congressional Correspondence Records. ,

       D. Possible Systems of Records

       1. Activity Accounting - The Commission's activity accounting program collects,
compiles, and prints information by name of employee. This could be defined as a separate
system of records. In the alternative, the function could be included within the payroll record
system. The Commission has wide discretion in making this choice. The simplest alternative
is to make the activity accounting records part of the payroll system. The function should be
properly described in the categories of records and purpose sections. The activity accounting
records should not require any additional routine uses.

Recommendation

      Include activity accounting records within the new Pay, Leave, and Travel Records
system notice.

        2. Web Page - The Commission's Web page does not currently collect identifiable
information and retrieve it by individual identifier. The Internet is a highly changeable
environment, and information practices are dynamic. Changes in Web page usage could result
in creation of a system of records. This bears watching. As long as no personal information
is collected, there is no Privacy Act obligation. It may be advisable, however, to include a
privacy notice on the page to explain the data collection and use policies to visitors. This is
not a legal requirement, but it has been recommended as a courtesy."

        3. LocatorlTelephone Records - The Office of Management Services produces the
Commission's telephone directory from a separate computer file maintained for that purpose.
That file could be a separate system of records. However, since the records have no other
uses and are not normally retrieved by identifier, defining the file as a system is optional. If
the same list came from agency personnel records, no separate notice would be required.



                                               9
         4. Administrative Protective Orders - The Office of the Secretary manages
Administrative Protective Orders (APO) issued in connection with investigations. Applicants
seeking to obtain restricted information pursuant to the Commission's Rules of Practice and
Procedure must complete an APO Application Form. The forms are used to create a service
list for each case. A copy of the service list is maintained as well in a separate notebook in
chronological order by case name. There is no evidence of any actual retrieval of individual
records by name or other identifier. As a result, a system of records does not exist. The
possible, occasional retrieval of a form filed by a specific individual by a search of the
notebook or case files does not alter this conclusion.

        If a violation of an APO is alleged, any related files are maintained as part of the main
investigation file and not separately or by individual identifier. If a letter of reprimand is issued
to an individual because of a violation of an APO, the letter is placed in the case file and not
by the name of the individual. The office maintains a separate tickler file to keep track of the
dates when these letters are to be expunged. This too does not appear to qualify as a system
of records.

        If the Commission were required to undertake a large number of investigations for
violations of APOs, it is possible that a formal system of records would be needed. However,
while there are a large number of APOs, the number of investigations and the number of
reprimands is small. This small number of actions allows the Office of the Secretary to
manage the functions without a separate filing system. There is no evidence that the present
system was established to circumvent Privacy Act requirements. However, because APO and
related records may be used to take adverse actions against individuals, this is a sensitive
area. If the filing system changes or if the caseload rises significantly, the need for a formal
Privacy Act system should be revisited.

       E. Government-Wide Systems

       Seven agencies maintain government-wide system of records notices.I" These include
records that the Commission may maintain but that do not necessarily require local system
notices. The most "famous" is the Office of Personnel Management system for official
personnel files. 2 0

        These system notices are applicable to Commission files without the need for any
action or special notice by the Commission. Nevertheless, to make the Commission's Privacy
Act notices more descriptive of the types of records maintained on employees, it would be
helpful to include a cross reference to them. Some agencies follow this practice.

       One way to accomplish this is through an appendix to the Commission's system
notices. The appendix might consist of the names of the government-wide systems with this
introduction:

              The Commission maintains some personal records covered by government-wide
        system of records notices published by other agencies. There may not be actual
        Commission files in all government-wide systems. This list includes all government-
        wide system notices known as of the publication date, but any later established
        government-wide system notices may also be applicable.




                                                 10
Recommendation

     Include a reference to government-wide systems of records applicable to the
Commission in the publication of Privacy Act system of records notices.

       F. Accuracy of System Notices: General Observations

      1. Common Elements - Three elements in every Commission system notice that can
appropriately be identical are the Notification Procedure, Record Access Procedure, and
Contesting Record Procedure. There is unnecessary variability in existing system notices.

       Specific wording should, of course, be consistent with Commission Privacy Act rules.
This report recommends minor changes to the access rules. The language suggested here is
consistent with those recommendations.

               Notification Procedure: Individuals wishing to inquire whether this
       system of records contains information about them should contact the Director,
       Office of Personnel, United States International Trade Commission, 500 E
       Street, SW, Washington, DC 20436. The Director of the Office of Personnel is
       the Commission's Privacy Act Officer.

              Individuals must furnish the following information for their records to be
       located and identified:

              1.   Full name(s).
              2.   Date of birth.
              3.   Social Security Number (for employees).
              4.   Dates of Employment (if applicable).
              5.   Signature.

              Record Access Procedure: Individuals wishing to request access to their
       records should contact the Director, Office of Personnel, United States
       International Trade Commission, 500 E Street, SW, Washington, DC 20436.
       The Director of the Office of Personnel is the Commission's Privacy Act Officer.

              Individuals must furnish the following information for their records to be
       located and identified:

              1.   Full name(s).
              2.   Date of birth.
              3.   Social Security Number (for employees).
              4.   Dates of Employment (if applicable).
              5.   Signature.

              Individuals requesting access must comply with the Commission's
       Privacy Act regulations on verification of identity (19 CFR part 201).

               Contesting Record Procedure: Individuals wishing to request amendment
       of their records should contact the Director, Office of Personnel, United States



                                              11
       International Trade Commission, 500 E Street, SW, Washington, DC 20436.
       The Director of the Office of Personnel is the Commission r s Privacy Act Officer.

              Individuals must furnish the following information for their records to be
       located and identified:

              1.   Full name(s).
              2.   Date of birth.
              3.   Social Security Number (for employees).
              4.   Dates of Employment (if applicable).
              5.   Signature.

              Individuals requesting amendment must comply with the Commission s        I


       Privacy Act regulations on verification of identity (19 CFR part 201).

       The system notice for Grievance Records includes in the Record Access Procedures
section a useful preface explaining disclosure policies for grievance records. The preface
should be retained for that system.

Recommendation

        Standardize, to the greatest extent' possible, the common elements of system notices
in the publication of Privacy Act system of records notices.

        2. Structuring Common Routine Uses - Existing systems share a set of routine uses
described in an appendix to the system notices. It is common for agencies to list agency-wide
system notices in this fashion. The Commission's appendix of common routine uses is,
however, ambiguous. The appendix appears in the system notice list before the Inspector
General system notice." It is not clear that the appendix applies to that system as well as
those listed before the appendix. In addition, the individual system notices fail to include a
specific reference to the routine uses listed in the appendix. The result is some ambiguity in
the application of the routine uses to all Commission systems.

       The use of a general list of agency routine uses is a good idea. It avoids disparate
routine uses for similar purposes. Automatically applying all general routine uses to all
systems, however, can create problems and may be unnecessary.

       Another way of structuring general routine uses is to create a central list of routine uses
applicable to more than one system. Each system notice references appropriate routine uses
from the list. A common structure for a central list of routine uses is through a list of "General
Routine Uses Applicable to More than One System of Records." This list should appear before
the system notices themselves, as the first item in the system of records publication after the
table of contents. Each system notice would include as part of the specific routine uses a
statement such as: "General Routine Uses A, S, C, & F apply to this system." Additional local
routine uses for that system, if any, would follow.

Recommendation

      Revise the general routine uses and standardize references to these routine uses in each
system notice.

                                               12
        3. Adequacy of Existing Common Routine Uses - Of the six existing common routine
uses, the first three are relatively standard ones employed throughout qovernment.i? Despite
the widespread adoption of these routine uses, some rewording is appropriate to meet OMS
guidance. See the Attachment for suggested revisions to these routine uses.

       The fourth common routine use authorizes disclosures for appeals, complaints, and
settlements of personnel actions." This is unobjectionable. The last sentence authorizes
disclosure to the Civil Service Commission in connection with evaluation and oversight of
Federal personnel management. This is out of date because the Civil Service Commission is
now the Office of Personal Management. In addition, this should be identified as a separate
routine use because it does not relate to the disclosure in the first part of the routine use.

       The fifth common routine use authorizes disclosure of records to "officers and
employees of a Federal agency for purposes of audit." This may be too broad and too vague
to meet the statutory requirement. A court rejected a routine use permitting disclosure to
"federal regulatory agencies with investigative units" because it did not provide adequate
notice to individuals about how information might be released and for what purpose.:"

       Because the fifth routine use does not define the term audit, it may not be informative
enough to provide meaningful notice to individuals. It may also fail to meet the requirement
that routine uses be compatible with the purpose for which the information was collected. 25
The notice does not suggest a nexus between the audit and the purpose of collection.

       Although the routine use in its present form is questionable, it may still be too limited
to accomplish its intended purpose. The routine use only permits disclosure to federal
agencies. It would not cover disclosure to private auditors working for the Commission or
other federal agencies.

       This general routine use is not necessary. The first general routine use broadly supports
disclosure to other agencies for investiqations of violations or potential violations of law. The
Act provides directly for disclosures to the General Accounting Office. 26

       The sixth common routine use permits disclosure to the General Services Administration
in connection with administrative services provided by GSA under aqreernent.j" These
services are now performed by another government agency. This problem can be addressed
by making the general routine use more generic.

       The Attachment contains a list of suggested general routine uses that might be adopted
by the Commission.

       4. Internal Routine Uses - Some existing and proposed routine uses authorize disclosure
to Commission employees. This is unnecessary and should not be done through a routine use.
The Privacy Act authorizes disclosures to officers and employees of the agency maintaining
the record who have a need for the record in the performance of their duties.:" The
Commission's General Counsel, Inspector General, and all other agency officials can obtain
needed information under this statutory authorization. If a routine use purports to establish
a standard for access less stringent than that in the Act, the routine use is improper.

       5. Descriptions of Policies and Practices - Each system notice contains specific
descriptions of basic records management policies. Many of these descriptions are out-of-date

                                               13
because of the passage of time and changes in technology. The descriptions should be
updated by the system managers, keeping in mind these considerations:

       Storage: Technologies used for record storage continue to evolve. Describing storage
media with too much precision will only make system notices unnecessarily obsolete. At the
same time, there is a clear obligation to describe the media used in order to inform the reader.
The nature of the storage medium provides information about the vulnerability of the data to
misuse.

        In all cases, it will be useful to state whether information is stored on paper or in file
folders, in computer media (without necessarily distinguishing between floppy disk, hard disk,
tape, etc.), on other media (microform or CD-ROM), or in an online environment. It would also
be appropriate to state if records exist on an internal network, are accessible externally or are
otherwise shared electronically.

       Retrievability: This is the key characteristic that makes a collection of records into a
formal Privacy Act system of records. A brief description of how records are retrieved (by
name, SSN, etc.) is appropriate.

       Safeguards: The general security requirement of the Privacy Act calls for appropriate
safeguards." Because almost all Commission records pertain to Commission employees, major
threats to security are internal. This is not to diminish the importance of proper security.
Misuse of records by insiders is a major threat for almost all personal records. The gossip
value of personnel and other records should not be dismissed lightly.

       All physical records stored at Commission headquarters are in an environment that
generally restricts public access to the offices maintaining the records. This should be noted
in each system notice. Additional security measures (e.g., locked or lockable filing cabinets,
locked rooms, restricted areas, password protected) for specific systems should also be
described accurately. As more records move into the online environment, the Commission
should make sure that only those employees who require access to the records can see them,
and these measures should be generally described in the relevant system notices.

       Each system may have different safeguards and may require slightly different
descriptions. As a model, a suggestion for the Inspector General records is offered:

               All Commission records are maintained in a building with restricted public
       access. The records in this system are kept in a limited access area within the
       building. The files are maintained in secure file cabinets, and access is limited
       to persons whose official duties require access.

        Retention and disposal: Some proposed system notices refer to records disposal
schedules. This is a useful way of addressing the requirement to describe policies for
retention, although it is not required by the Act. The goal of the law is to inform the reader
how long the records remain at the agency or in other storage. Disposal of unnecessary
records offers a significant privacy protection.

       When system notices refer to records disposal schedules, some basic details should be
included. The general comment that records will be retained and disposed of in accordance
with applicable disposal schedules conveys no actual information. Similarly, a reference to a

                                                14
specific disposal schedule by number conveys little information. An interested reader must
seek elsewhere to obtain a copy of the generally obscure disposal schedule. The best result
is to state directly how long records are maintained. An additional reference to a disposal
schedule is helpful and would encourage compliance with applicable disposal rules.

       Access Controls - The statutory requirement for describing policies and practic e s'?
specifically mentions "access controls" as an element that should be described. The 1 975
OMB guidelines describe this as the measures that have been taken to prevent unauthorized
disclosure and what categories of individuals within the agency have access."

       There is no specific category for access controls in existing notices. This is not
necessarily a defect. Many agencies do not include a section for access controls. The subject
can be handled through a description included under the Safeguards section of the notice.

       G. Accuracy of System Notice - Specific Comments

       For all existing system notices, the current address for the Commission should be
included. Only the Inspector General system includes the correct Commission address.

       For all existing system notices, the legal authority for maintenance of the system may
need to be updated with references to current law.

       For all existing system notices, the descriptions of categories of individuals, categories
of records, policies and practices, and record source categories should be rechecked. Specific
problems are described below.

       1. Employment and Financial Disclosure Records - If this system is eliminated as
recommended, then the system notice does not need to be corrected or updated. If retained,
the existing routine uses must be revised because they are unclear, out-of-date, and
unnecessary.

        2. Budgetary and Payroll-Related Records - The system location description should state
that payroll records are also stored on a computer system operated by the Department of the
Interior as well as by the Commission.

        The description of categories of records is out-of-date. Some specific types of records
referenced in the notice no longer exist. The current description is admirably specific but more
detailed than necessary. A generic description of the information maintained rather than the
specific ways in which the records are organized would be appropriate and less likely to
become obsolete. This example from OPM/INTERNAL-5 covering Pay, Leave, and Travel
Records offers one model:

          This system contains various records relating to pay, leave, and travel. This includes
       information such as: Name; date of birth; Social Security Number; home address;
       grade; employing organization; timekeeper number; salary; pay plan; number of hours
       worked; leave accrual rate, usage, and balances; Civil Service Retirement and Federal
       Retirement System contributions; FICA withholdings; Federal, State, and local tax
       withholdings; Federal Employee's Group Life Insurance withholdings; Federal
       Employee's Health Benefits withholdings; charitable deductions; allotments to financial
       organizations; garnishment documents; savings bonds allotments; union and

                                               15
       management association dues withholding allotments; travel expenses; and information
       on the leave transfer program and fare subsidy program.

If any specific element is inappropriate (e.g., fare subsidy program) then it should be dropped.
If other elements are part of this system (e.g., activity reporting records), then these elements
should be added.

        The authority for maintenance of the system could be improved. A reference to an
entire title of United States Code as authority is unnecessarily vague. The specificity of the
OPM notice for a comparable system of records is noteworthy and may offer a useful guide:

          31 U.S.C. 66a; 5 U.S.C. 5501 et seq., 5525 et seq., 5701 et seq., and 6301
       et seq.; Executive Order 9397; Pub. L. 100-202, Pub. L. 100-440, and Pub. L.
       101-509.

       The proposed revision of the system notices adds a purpose section. This is a highly
advisable improvement. The proposed statement of purpose might be useful in this form:

              The Commission uses the records to administer pay, leave, and travel
       requirements and to prepare the budget.

       The routine use section should be revised. Suggested routine uses are:

             The records in this system of records are transmitted electronically by the
       Commission to the Denver Administrative Services Center, U.S. Bureau of Reclamation,
       U.S. Department of Interior, which provides payroll services. The USITC, and the
       Department of Interior acting on behalf of the USITC, may make the following routine
       uses:

              a. General Routine Uses A, S, C, D, E, F, G, H, I, and J;

              b. To the Department of the Treasury to issue checks and U.S. Savings Bonds;

              c. To the Office of Personnel Management for retirement, health and life
              insurance purposes, and to carry out OPM's government-wide personnel
              management functions;

              d. To the National Finance Center, Department of Agriculture, for the Thrift
              Savings Plan and Temporary Continuation of Coverage;

               e. To the Social Security Administration for reporting wage data in compliance
               with the Federal Insurance Compensation Act;

              f. To the Internal Revenue Service and to State and local tax authorities for tax
              purposes, including reporting of withholding, audits, inspections, investigations,
              and similar tax activities;

              g. To officials of labor organizations recognized under 5 U.S.C. Chapter 71 for
              the purpose of identifying USITC employees contributing union dues each pay
              period and the amount of dues withheld.

                                               16
       The storage description in the revised system notice is out-of-date.

      The retrievability description should refer only to name and social security number.
Dates are not identifiers under the Privacy Act.

      The retention and disposal description is too general. The reference to record disposal
schedules without the actual preservation time conveys no useful information to the reader.

       The record source categories description might be modified to read:

          Information in this system of records comes from the individual to whom the record
       pertain, Commission officials responsible for pay, leave, and travel requirements, and
       official personnel documents.

      3. Time and Attendance Records - If this system is consolidated with the payroll
system, the notice will be eliminated.

         4. Grievance Records - The revised notice for this system is generally correct. The
routine uses should refer to all general routine uses except D. Proposed routine use 5 (to
officials of labor organizations) may be unnecessary if these disclosures can be made with the
consent of the record subject. The general routine uses cover other necessary disclosures.

        5. OIG Investigative Files General and Criminal - As discussed above, this system
should be published as two separate systems of records. Much of the description in the two
systems will be similar or identical. However, the categories of individuals description should
not include a reference to Commission offices and subdivisions. The Privacy Act applies only
to individuals and not to legal persons.

       The preamble to the routine use section should be dropped. It is unclear that the
Inspector General can or should seek assurances that recipients of information must comply
with Privacy Act safeguards. This language could cause unnecessary liability if a recipient
misuses data. The Act's requirements for contractors should be followed when appropriate,
but there is no need to include a broader statement responsibility in the routine uses.

       In place of the specific routine uses, the notice should include a reference to all general
routine uses. There is no need for a routine use covering disclosure to the General Counsel
of the Commission (proposed routine use 9). The Privacy Act authorizes necessary internal
disclosures.

      The proposed routine use does not include a purpose section. This should be added to
conform with other system notices.

      The description of storage policy should be made more generic by referring to computer
media rather than computer disks.

       6. Telephone Call Detail Records - This is a proposed system notice for a newly defined
system of records. The categories of individuals and categories of records descriptions make
no reference to the collection of information about local calls. This is accurate since that
information is not currently collected. If there is a reasonable prospect that this information



                                                17
might be collected and maintained in the future, the descriptions might be made more generic
to include local calls. This would avoid the need for a possible future change in the notice.

       The routine uses for this system should incorporate all of the general routine uses
except D and J. The first proposed routine use (to a telecommunications carrier) is
unnecessary since general routine use H covers contractors. The second routine use (to the
Internal Revenue Service) is appropriate, but it might be revised to refer to "other federal
agencies or federal contractors with statutory authority to assist in the collection of
Commission debts. n This will cover the possibility that debt collection functions now
conducted by the IRS might be shifted elsewhere. The proposed routine use to the Inspector
General is unnecessary.

       The storage description appears incomplete. Some information is collected on computer
tape, and a more general description of the media may be needed.

      The retention and disposal description is not sufficiently detailed. It should indicate the
approximate length of time that the records will be kept.

       7. Security Key Use Records - If this newly proposed system is expanded to include
physical security records, as suggested above, then the system notice will need to be rewritten
and expanded. Appropriate general routine uses for this system are all except D and J. No
other routine uses may be needed.

Recommendation

        Reexamine and revise each system notice to reflect current conditions and to correct
identified deficiencies.


III. Other Privacy Act Requirements

       A. Privacy Act Rules

       The Commission's Privacy Act rules appear at 19 CFR §201.22-.32 (1995). The rules
were originally promulgated in 1975, shortly after the effective date of the Act. 32 A 1990
amendment added exemptions for systems of records maintained by the Inspector General. 33
There are some problems with the existing rules:

       • The rules include the former address of the Commission at 701 E Street. The address
needs to be updated .

       • The rules contemplate that any individual seeking access to his or her records must
make an appointment with the Director of Personnel to inspect the records;" Alternatively,
the Director may provide the individual with a copy of the record by certified mail. 35

        The Act clearly provides that an individual may review and have a copy made of all
records about himself or herself'." The rules should be revised to clarify that a requester has
a right to have a copy of a record and to explain more clearly the procedure for obtaining that
copy without a personal visit. There is no evidence that this minor deficiency in the rules has
adversely affected any actual request.

                                               18
      • The rules provide that fees for copying of records shall be at the rate of ten cents per
page. There is no charge unless the total amount exceeds fifty cents.

        Under the Freedom of Information Act, no fees may be charged for the first 100 pages
of duplicatiorr" or where the costs of routine collection and processing of the fee are likely to
equal or exceed the amount of the fee. 38 While the FOIA fee standards are not directly
applicable to Privacy Act requests, it is common for first-party requests for records to be
treated as if the request was made under both laws and for the requester to be charged only
the most favorable fees permitted under either law. At a minimum, it would be appropriate
for the Commission to conform its Privacy Act fees to the FOIA standards.

        An agency need not charge copying fees at all under the Privacy Act, and the
Commission may wish to consider not charging for routine requests. The cost of accounting
for occasional payments is likely to exceed the cost of processing. Since most Commission
records pertain to its employees, a useful policy might be to allow each employee a free copy
of his or her personnel file once a year and whenever a change is made.

       • There are exemptions in the rules'" for some systems of records. The exemptions for
the Inspector General systems were properly claimed.

       The remaining three exemptions are not properly claimed. The Act requires that
exemptions be applied to identifiable systems of records. Subsection (a) of the rules invokes
an exemption for classified records, but it fails to apply the exemption to a specific system of
records. No existing systems appear to contain classified information. As a result, this claim
of exemption is both improper and unnecessary.

        Subsection (b) of the Commission's rules invokes an exemption for statistical records.
Here too, there is no specific system referenced, and no defined system appears to include
statistical records. As a result, this claim of exemption is both improper and unnecessary.

        Subsection (c) invokes the exemption for investigatory material compiled for
determining suitability for employment, federal contracts, and other purposes. The rules apply
the exemption to "Iplerscnnel investigations records in the custody of the Security Officer .
•   •No specific system is identified, and no existing system appears to include these records.
        11


There is a qovemment-wide system of records (OPM/GOVT-5 Recruiting, Examining, and
Placement Records) that covers this category of records that already has an exemption. As
a result, the exemption claim is both improper and unnecessary.

Recommendation

             Revise the Commission's Privacy Act rules.

             B. Accounting

       The Privacy Act requires that agencies maintain an accounting of the date, nature, and
purpose of most external disclosures of records. The name and address of the person or
agency receiving the records must also be recorded."? No accounting is required for internal
disclosures or for disclosures under the Freedom of Information Act. The law does not require
maintenance of a specific record, notation, or log of each disclosure. It is sufficient if an
agency can reconstruct the accounting from available information when requested."

                                                 19
       Only some Commission personnel are aware of the law's accounting requirement. No
one reported the maintenance of any specific accounting records. However, it also appears
that the routine conduct of agency business either generates records of disclosures or
otherwise permits the reconstruction of the accounting for a specific record. The current
practices appear sufficient to meet the law's requirement.

       When new systems of records are established or existing systems are changed, system
managers should consider how the Act's accounting requirement can be fulfilled. As more
records become digital, extra care should be taken to make sure that the required accounting
for external disclosures can be reconstructed routinely.

       c. Forms
       The Privacy Act requires that an agency disclose certain information to individuals
asked to provide personal data." The Privacy Act notice must appear on the form or on a
separate piece of paper. 43 While the Commission staffer responsible for forms automation was
aware of this requirement, most other personnel were not. A review of the agency forms list
confirmed that no notice appears necessary. However, the list does not reflect all forms in use
at the Commission.

       Several Commission forms require disclosure of personal information without providing
the necessary Privacy Act notice. There is no systematic way to identify these forms, but I
was able to find forms that require notices.:"

        • Application--Parking Space (Office of Management Services, USITC # 11) - This form
calls for a variety of personal information, including home address, and vehicle identification
information. This clearly requires a Privacy Act notice. The form itself, however, contains a
questionable applicant certification. 45

       • Office of the Secretary Mailing List Form (no title or number) - This form calls for
disclosure of the requester's name, address, and telephone number. There should be a Privacy
Act notice on the form. In addition, the Office of the Secretary issues a yearly renewal notice
asking for confirmation and updating of the same information from requesters. A Privacy Act
notice should be added to this form as well.

        • Official Travel Authorization (ITC Form 005) - This basic travel authorization form
becomes part of the payroll system of records (which contains travel documentation). It
requires a Privacy Act Notice. Other travel forms in use include Exceptions to the Use of
Contract Carriers (ITC Form 125), Justification for Premium Class Travel (ITC Form 349L
Justification for Use of a Foreign Flag Air Carrier (no number), and Justification for Actual
Subsistence Travel (ITC Form 350). These forms also need Privacy Act notices .

        • Designation of Employee Check (Office of Finance and Budget, ITC Form 351) - This
form asks departing employees to disclose social security number and home address. It
requires a Privacy Act notice. Presumably, the information is maintained as part of the payroll
system of records .

       • Security Sign-In Form - Visitors to the building must sign in at the front security desk.
A Privacy Act notice should be provided. Since printing the notice on the form itself would



                                               20
be cumbersome, the requirement can be met by printing the notice on a separate piece of
paper and posting a sign that the notice is available upon request.

Recommendation

       Add a Privacy Act notice to Commission forms as required by the law.      \\

       D. Computer Matching

        The Privacy Act imposes requirements on agencies that conduct computer matching
or that provide data for other agencies to use for computer matching. I found no evidence that
the Commission engages in matching activities as either a source or recipient agency. As a
result, the Commission has no current computer matching obligations under the Act.

       Personnel information routinely provided to the Office of Personal Management is used
in matching, but OPM is the source agency and complies with the requirements of the Act.
The Commission also shares payroll and personnel information with its payroll contractor, the
Department of Interior. I found no reason to believe that the Department was using
Commission data for computer matching purposes. However, if the Department in its role as
contractor for other agencies begins to provide data for matching purposes, the Commission
may be obliged to create a Data Integrity Board:" and enter into matching agreements. 47 It
might be advisable for the Commission to expressly tell the Department to seek advance
approval from the Commission before using personnel data for computer matching.

       E. Reporting and Reviewing Requirements

        OMS Circular A-130 on the Management of Federal Information Resources lists many
reporting and reviewing requirements for agencies subject to the Privacy Act. Agencies must
conduct regular reviews of contracts (every two years), recordkeeping practices (every two
years), routine uses (every four years), exemptions (every four years), matching programs
(annually), training (every two years), violations (every two years), and system notices (every
two years). None of these reviews had been conducted. The annual review for matching
programs is not applicable to the Commission because there are no matching activities.

       Agencies must also provide several different Privacy Act reports. These inclu~he
Privacy Act report to OMS (every two years), matching activity report (every two years), new
system of records report (when needed), altered system of record report (when needed), and
four different types of matching reports. The Commission has had no obligation to file any
matching report.

       The Commission has complied with other reporting requirements. Reports were filed
with the Congress and OMB for the only new system of records adopted in the last twenty
years. The Commission also published required Federal Register notices.       While the
Commission has not kept its Privacy Act system notices up to date, the procedural
requirements for adopting new systems were followed correctly.




                                              21
       F. Personnel Familiarity with the Privacy Act

         Senior Commission staff interviewed for this audit showed limited awareness of the
Privacy Act and its requirements. This is not unusual for an agency that conducts no official
activities with individuals and that engages in little routine Privacy Act business. Until several
years ago, the Commission never received a Privacy Act request for access.

        The Commission's Privacy Act Officer is the Director of Personnel.?" Based on existing
policy, he has limited responsibilities. He serves as the public point of contact for Privacy Act
matters and as internal coordinator of Privacy Act requests. In addition, the Privacy Act
Officer responds to occasional data calls from the Office of Management and Budget. These
functions have been carried out adequately.

        The Commission has not assigned responsibility for reviewing system notices, forms,
for reminding other staff about Privacy Act obligations for new systems of records, or for
investigating complaints. The Commission certainly does not require a full-time Privacy Act
Officer to carry out these functions. However, there is a need for someone to undertake
general responsibility for overseeing the system notice and form requirements of the Act and
for investigating identified problems.

         Given the limited number of Privacy Act systems of records maintained by the
Commission, an occasional review of compliance is appropriate. One way to accomplish this
is to rely upon the biennial data call from the Office of Management and Budget as a prompt.
Every two years when OMS asks for Privacy Act reporting information, the Privacy Act Officer
should send a copy of each existing system notice to each system manager and ask for a
review of the currency of the notice. Any necessary changes can be made" then.

       This process will help to assure that system notices do not languish another twenty
years without updating. If new systems of records are created in the interim (or if there are
major changes in existing systems), the notices should be updated more frequently. New
routine uses will also require prompt attention. For minor changes, however, revision of
system notices every two years is sufficient. A biennial review would also meet all of the
review requirements in OMS Circular A-130. Most of the review requirements are biennial.
Those required every four years could be conducted easily and quickly biennially.

        In addition, Commission staff with responsibility for designing or controlling forms
should be alerted to the general requirements of the Privacy Act relating to the creation of
forms. They should serve as an early warning system when new forms create Privacy Act
obligations. Similarly, Commission staff responsible for designing and maintaining computer
systems should be aware of what constitutes a system of records so that they can alert the
Privacy Act Officer when possible new systems are created. They should be notified of these
general oversight responsibilities immediately and again once every two years.

       The Privacy Act imposes a variety of obligations on federal agencies.         Once basic
compliance is reestablished, it will take little effort to keep current.

Recommendation

     Set forth the duties of the Privacy Act Officer to oversee and coordinate the                   \
Commission's implementation of the Act, including reviewing existing system notices every            \\
                                                                                                     \\


                                               22
two years when the Office of Management and Budget collects information for the Privacy Act
report to Congress, and investigating Privacy Act complaints and known or suspected
deficiencies.

       G. Vulnerability Assessment for Litigation

        This report documents that the Commission is not in compliance with several
requirements of the Privacy Act. The Act includes a criminal penalty for willfully maintaining
a system of records without meeting the notice requirement." Any potential violation of this
section would have to satisfy the willful test, and this is unlikely. Many other agencies
(including OMB!) are also in technical violation of the publication requirements of the Act. In
any event, there has never been a prosecution under this section.              The crime is a
misdemeanor.

         The Privacy Act provides civil remedies''? that could result in liability. Most Privacy Act
litigation is over denial of access or correction or improper disclosures. Suits may also be
brought for failure to maintain records with accuracy, relevance, timeliness, or completeness
as is necessary to assure fairness. Finally, suits may be brought for any other violation.

         In theory, the Commission's failure to have system of records notices for all systems
or accurate notices for existing systems could give rise to liability. Given the actual
deficiencies found, however, it seems unlikely that any individual could successfully
demonstrate the adverse effect'" that is an essential requirement of a lawsuit. This is also
likely to be true for failure to include notices on forms. Unauthorized disclosures provide other
grounds for liability, but the adverse effect threshold is hard to overcome in most cases.

        It is unlikely that the Commission would be held civilly or criminally liable for most if
its failure to comply with Privacy Act requirements. Potential liability can be avoided
altogether by updating and republishing Privacy Act system notices and by putting proper
notices on forms.

IV. Summary of Recommendations

       We recommend that the Director of Administration, in his capacity as chairman of the
group formed to undertake a review to determine where Privacy Act administration should be
assigned, notify (1) group members of the need to continue working on implementation of the
recommendations; and (2) the Privacy Act Officer, when one is designated, of his or her
responsibility to respond to the following recommendations:

       Eliminate the Employment and Financial Disclosure Records system notice.

       Merge the Budgetary and Payroll-Related Records with the Time and Attendance
       Records and establish a new system called Pay, Leave, and Travel Records.

       Publish separate system notices to clarify that OIG files are maintained in two distinct
       systems.

        Establish a Security Access Information system notice covering both electronic and
        physical security records.



                                                23
      Amend the security contract to include the standard Privacy Act clause when the
      contract is next renewed.

      Establish a new system of records called Personnel Security Investigative Files as an
      exempt system.

      Establish a new system of records called Library Circulation Records.

      Establish a new system of records called Parking Records.

      Establish a new system of records called Mailing List.

      Establish a new system of records called Congressional Correspondence Records.

      Include activity accounting records within the new Pay, Leave, and Travel Records
      system notice.

      Include a reference to government-wide systems of records applicable to the
      Commission in the publication of Privacy Act system of records notices.

      Standardize, to the greatest extent possible, the common elements of system notices
      in the publication of Privacy Act system of records notices.

      Revise the general routine uses and standardize references to these routine uses in
      each system notice.

      Reexamine and revise each system notice to reflect current conditions and to correct
      identified deficiencies.

      Revise the Commission's Privacy Act rules.

       Add a Privacy Act notice to Commission forms as required by the law.

      Set forth the duties of the Privacy Act Officer to oversee and coordinate the
      Commission's, implementation of the Act, including reviewing existing system notices
      every two years when the Office of Management and Budget collects information for
      the Privacy Act report to Congress, and investigating Privacy Act complaints and
      known or suspected deficiencies.

         The Privacy Act Officer will need to coordinate with the appropriate Commission
officials to implement the above recommendations, and some actions will require approval by
the Commission.




                                            24
                                                                           Attachment

                               Suggested Common Routine Uses

General Routine Uses Applicable to More than One System of Records

A. Disclosure for Law Enforcement Purposes

       Information may be disclosed to the appropriate Federal, State, local, or foreign agency
responsible for investigating, prosecuting, enforcing, or implementing a statute, rule,
regulation, or order, if the information indicates a violation or potential violation of civil or
criminal law or regulation within the jurisdiction of the receiving entity.

B. Disclosure Incident to Requesting Information

       Information may be disclosed to any source from which additional information is
requested (to the extent necessary to identify the individual, inform the source of the
purpose(s) of the request, and to identify the type of information requested), when necessary
to obtain information relevant to an agency decision concerning retention of an employee or
other personnel action (other than hiring), retention of a security clearance, the letting of a
contract, or the issuance or retention of a grant, or other benefit.

C. Disclosure to Requesting Agency

         Disclosure may be made to a Federal, State, local, foreign, or tribal or other public
authority of the fact that this system of records contains information relevant to the retention
of an employee, the retention of a security clearance, the letting of a contract, or the issuance
or retention of a license, grant, or other benefit. The other agency or licensing organization
may then make a request supported by the written consent of the individual for the entire
record if it so chooses. No disclosure will be made unless the information has been determined
to be sufficiently reliable to support a referral to another office within the agency or to another
Federal agency for criminal, civil, administrative, personnel, or regulatory action.

D. Disclosure to Office of Management and Budget

        Information may be disclosed to the Office of Management and Budget at any stage in
the legislative coordination and clearance process in connection with private relief legislation
as set forth in OMB Circular No. A-19.

E. Disclosure to Congressional Offices

        Information may be disclosed to a congressional office from the record of an individual
in response to an inquiry from the congressional office made at the request of the individual.

F. Disclosure to Department of Justice

       Information may be disclosed to the Department of Justice, or in a proceeding before
a court, adjudicative body, or other administrative body before which the Commission is
authorized to appear, when:

           1. The Commission, or any component thereof; or
           2. Any employee of the Commission in his or her official capacity; or


                                                25
          3. Any employee of the Commission in his or her individual capacity where the
       Department of Justice or the Commission has agreed to represent the employee; or
          4. The United States, when the Commission determines that litigation is likely to
       affect the Commission or any of its components

is a party to litigation or has an interest in such litigation, and the use of such records by the
Department of Justice or the Commission is deemed by the Commission to be relevant and
necessary to the litigation provided, however, that in each case it has been determined that
the disclosure is compatible with the purpose for which the records were collected.

G. Disclosure to the National Archives

       Information may be disclosed to the National Archives and Records Administration in
records management inspections.

H. Disclosure to Contractors, Grantees, etc.

        Information may be disclosed to contractors, grantees, consultants, or volunteers
performing or working on a contract, service, grant, cooperative agreement, job, or other
activity for the Commission and who have a need to have access to the information in the
performance of their duties or activities for the Commission. This includes federal agencies
providing payroll, management, or administrative services to the Commission. When
appropriate, recipients will be required to comply with the requirements of the Privacy Act of
1974 as provided in 5 U.S.C. §552a{m).

I. Disclosures for Administrative Claims, Complaints and Appeals

        Information from this system of records may be disclosed to an authorized appeal
grievance examiner, formal complaints examiner, equal employment opportunity investigator,
arbitrator or other person properly engaged in investigation or settlement of an administrative
grievance, complaint, claim, or appeal filed by an employee, but only to the extent that the
information is relevant and necessary to the proceeding. Agencies that may obtain information
under this routine use include, but are not limited to, the Office of Personnel Management,
Office of Special Counsel, Merit Systems Protection Board, Federal Labor Relations Authority,
Equal Employment Opportunity Commission, and Office of Government Ethics.

J. Disclosure to the Office of Personnel Management

      Information from this system of records may be disclosed to the Office of Personnel
Management pursuant to that agency's responsibility for evaluation and oversight of Federal
personnel management.

K. Disclosure in Connection with Litigation

         Information from this system of records may be disclosed in connection with litigation
or settlement discussions regarding claims by or against the Commission, including public filing
with a court, to the extent that disclosure of the information is relevant and necessary to the
litigation or discussions and except where court orders are otherwise required under section
(b)(11) of the Privacy Act of 1974, 5 U.S.C. §552a(b)(11).



                                                26
                                             *****

        Another type of disclosure must be provided for in some Commission systems, but it
cannot be accomplished through a routine use. Disclosures of information to consumer
reporting agencies pursuant to debt collection laws must be provided for in system notices as
appropriate. This cannot be accomplished in a general fashion. Following the routine use
section for each applicable system, this section should be included:

       Disclosure to Consumer Reporting Agencies: Information from this system of
       records may be disclosed to a consumer reporting agency as provided in 31
       U.S.C." §3711.

       This disclosure authorization section should be included in the system notice for Pay,
Leave, and Travel Records. The same notice should be added to any other Commission
system likely to give rise to claims by the government.

                              Notes on the Litigation Routine Use

       The Privacy Act provides directly for disclosures of records pursuant to the order of a
court of competent jurisdiction. 52 This provision has a troubled implementation history, with
a good deal of litigation over its meaning. As a result, it is difficult to be definitive about the
best way to address disclosures incident to litigation.

       Some things are clear. Disclosures can be made when there is a court order signed by
a judge. A grand jury subpoena (which is not signed by a judge) does not qualify. A court
order signed by the court clerk does not qualify. A routine discovery request from opposing
counsel is not a court order unless signed by a judge.

        Some agencies tried to avoid these limitations by promulgating routine uses covering
these types of disclosures. These routine uses were struck down when challenqed.F' While
agencies have considerable discretion in establishing routine uses, they may not promulgate
a routine use that would evade or weaken the statutory conditions of disclosure such as
(b)(11). Many objectionable routine uses remain in place because they have never been
challenged by litigants or revised by the agencies.

        Other uncertainties arise when disclosures are incident to administrative adjudications.
The (b){ 11) limitation on disclosure does not appear to apply at the administrative level,
although this is not entirely free from doubt. Still, the Act clearly contemplates interagency
transfers of files through routine use, and it would be troublesome and convoluted to conclude
that all administrative adjudications require court orders.

       Also, if settlement of a claim is being negotiated before the actual filing of litigation,
it appears that necessary disclosures can be accomplished through a routine use. No court
order can be obtained without the formal filing of a lawsuit so there would be no other way
to make these disclosures that may be necessary to protect important government interests.

         Routine use 7 proposed for the Inspector General record system, which addressed
litigation disclosures, is too broad.P" There are many existing litigation routine uses of other
agencies that are also too broad. While many routine uses can be "validated" by reference to
the practice of other agencies, this area is too changeable to rely heavily on other Privacy Act

                                                27
system notices. General Routine Use K for disclosure in connection with litigation can
substitute for the proposed Inspector General litigation routine use.

        For some litigation-related disclosures, routine uses are unnecessary. For any case
before a court, parties seeking Privacy Act information can and must seek a court order to
support the disclosure. Where the attorney for the other side represents the individual who
is the subject of a file, that individual's file can be disclosed with consent.

         Disclosure of records to the Justice Department when it is representing the Commission
in litigation is permissible through a routine use. Proposed General Routine Use F covers this
category of disclosures. A routine use is needed to permit the nonconsensual public filing of
Privacy Act records with a court. Proposed routine use K covers this category of disclosure.

       There may be circumstances in which opposing counsel seeks (or the Commission may
wish to disclose) Privacy Act records of individuals who are not parties to the lawsuit. For
example, there could be a demand for the disclosure of all personnel files in a particular office
to adjudicate or resolve a claim of discrimination. The proposed general litigation routine use
protects the ability of the Commission to make any litigation-related disclosures that can be
lawfully made through a routine use. All actual disclosures under this authority will require
case-by-case review to make sure that the routine use disclosure does not usurp authority
reserved to the court under section (b)(11). Whenever possible, non-identifiable or encrypted
information may serve the purpose without raising any privacy concerns.




                                               28
                                                                                         Notes

1. 5 U.S.C. §552a (1994).

2. Id. at §552a(b).

3. Id. at §§552a(a)(7) & (b)(3).

4. Id. at §552a(c).

5. Id. at §552a(d).

6. Id. at §552a(e)(3).

7. Id. at §552a(e)(4).

8. Id. at §552a(t).

9. Id. at §552a(0) & (u).

10. The draft revision of Commission Privacy Act notices reviewed for this audit was dated 3/25/96.

11. 40 Federal Register 28952 (July 9, 1975).

12. OGE/GOVT-1 - Public Financial Disclosure Reports; OGE/GOVT-2 - Confidential Statements of
Employment and Financial Interests.

13. See 61 Federal Register 25239 (May 20, 1996).

14. The criminal investigatory records are exempt under a general exemption, 5 U.S.C. §552a(j)(2) (1994). The
general investigatory are exempt under specific exemptions, 5 U.S.C. §552a(k)(2) (1994). The Commission rules
claiming these records already properly treat the Inspector General records as two separate systems.

15. Beneke v. Department of Commerce, No. 95-5195 (D.C. Cir., May 17, 1996).

16. Whether sign-in sheets are records within the purview of the Privacy Act is not without doubt. In American
Federation of Government Employees v. NASA, 482 F. Supp. 281 (S.D. Tex. 1980), the court held that a daily
employee time sheet was held not to be a record that the Congress intended to cover by the Privacy Act. That
result is controversial andmay not cover the sign-in records at issue here. In the case, the records covered
employees only. The Commission's records cover mostly visitors to the Commission's offices, but some
employees may be included as well.

17. 5 U. S. C. §552a(k) (1994) ("The head of any agency may promulgate rules . . . to exempt any system of
records within the agency . . . ").

18. See Gellman, "Action for Privacy Can Force Cookies to Crumble", Government Computer News 35 (May 27,
1996).

19. The last publication of a complete list of these notices was at 56 Federal Register 28178 (June 19, 1991).

20. The government-wide systems are:

           • EEOC/GOVT-1 - Equal Employment Opportunity in the Federal Government Complaint and Appeal
Records.


                                                        29
         • FEMA/GOVT-1 - National Defense Executive Reserve System
         • GSA/GOVT-2 - Employment Under Commercial Activities Contracts
         • GSA/GOVT-3 - Travel Charge Card Program
         • GSA/GOVT-4 - Contracted Travel Service Program
         • DOL/ESA-13 - Employment Standards Administration, Office of Workers' Compensation Programs,
Federal Employees Compensation Act File
                   I


         • DOL/ETA-14 - Employment Training Administration (ETA) Job Corpsman Records
         • MSPB/GOVT-1 - Appeal and Case Records
         • OGE/GOVT-1 - Executive Branch Public Financial Disclosure Reports and Other Ethics Program
Records
         • OGE/GOVT-2 - Confidential Statements of Employment &
 Financial Interests
         • OPM/GOVT-1 - General Personnel Records
         • OPM/GOVT-2 - Employee Performance File System Records
         • OPM/GOVT-3 - Records of Adverse Actions and Actions Based on Unacceptable Performance
         • OPM/GOVT-5 - Recruiting, Examining, and Placement Records
         • OPM/GOVT-6 - Personnel Research and Test Validation Records
         • OPM/GOVT-7 - Applicant -- Race, Sex, National Origin and Disability Status Records
         • OPM/GOVT-9 - File on Position Classification Appeals, Job Grading Appeals, and Retained Grade or
Pay Appeals.
         • OPM/GOVT-I0 - Employee Medical File System Records

21. See 5 Privacy Act Issuances 85-89 (1991). On the 1993 CD-ROM version of Privacy Act Issuances, the
appendix is appropriately included after all of the system notices.

22. The text of these routine uses is:

         • In the event that a system of records maintained by this agency to carry out its functions indicates a
         violation of law, whether civil, criminal or regulatory in nature, and whether arising by general statute or
         particular program statute, or by regulation, rule or order issued pursuant thereto, the relevant records in
         the system of records may be referred, as a "routine use," to the appropriate agency, whether Federal,
         State, local or foreign, charged with the responsibility of investigating or prosecuting such violation or
         charged with enforcing or implementing the statute, or rule, regulation or order issued pursuant thereto.

         • A record from this system of records may be disclosed as a "routine use" to a Federal, State or local
         agency maintaining civil, criminal or other pertinent information, such as current licenses, if necessary,
         to obtain information relevant to an agency decision concerning the hiring or retention of any employee,
         the issuance of a security clearance, the letting of a contract or the issuance of a license, grant or other
         benefit.         .

         • A record from this system of records may be disclosed to a Federal agency, in response to its request,
         in connection with the hiring or retention of an employee, the letting of a contract, or the issuance of a
         license, grant or other benefit by the requesting agency, to the extent that the information is relevant and
         necessary to the requesting agency's decision in the matter.

23. The text of the routine use is:

         • A record from this system of records may be disclosed to an authorized appeal grievance examiner,
         formal complaints examiner, equal employment opportunity investigator, arbitrator or other dilly
         authorized official engaged in investigation or settlement of a grievance, complaint, or appeal filed by an
         employee. A record from this system of records may be disclosed to the United States Civil Service
         Commission in accordance with the agency's responsibility for evaluation and oversight of Federal
         personnel management.



                                                         30
24. Britt v. Naval Investigative Service, 886 F.2d 544 (3rd Cir. 1989).

25. 5 U.S.C. §552a(b)(3) (1994).

26. Id. at §552a(b)(l0).

27. The text of the routine use is:

         A record from this system of records may be disclosed to officers and employees of the General Services
         Administration in connection with administrative services provided to this agency under agreement with
         GSA.

28. 5 U.S.C. §552a(b)(l) (1994).

29. Id. at §552a(e)(10) ("establish appropriate administrative, technical, and physical safeguards to insure the
security and confidentiality of records and to protect against any anticipated threats or hazards to their security or
integrity which could result in substantial harm, embarrassment, inconvenience, or unfairness to any individual on
whom information is maintained. ").

30. Id. at §552a(e)(4)(E).

31. 40 Federal Register 28964 (July 9, 1975).

32. 40 Federal Register 47976 (October 10. 1975).

33. 55 Federal Register 40379 (October 3, 1990).

34. 19 CFR §201.25 (1995).

35. Id. at §201.25(d).

36. 5 U .S.C. §552a(d)(l).

37. Id. at §552(a)(4)(A)(iv)(II).

38. Id. at §552(a)(4)(A)(iv)(I) (1994).

39. 19 CFR §201.32 (1995).

40. 5 U.S.C. §552a(c) (1994).

41. See OMB Privacy Act Guidelines, 40 Federal Register 28956 (July 9. 1975).

42. Subsection (e)(3) provides that each agency shall --

         (3) inform each individual whom it asks to supply information. on the form which it uses to collect the
information or on a separate form that can be retained by the individual --
                  (A) the authority (whether granted by statute. or by executive order of the President) which
         authorizes the solicitation of the information and whether disclosure of such information is mandatory or
        voluntary;
                  (B) the principal purpose or purposes for which the information is intended to be used;
                  (C) the routine uses which may be made of the information, as published pursuant to paragraph
         (4)(D) of this subsection; and
                  (D) the effects on him, if any, of not providing all or any part of the requested information.


                                                           31
5 U.S.C. §552a(e)(3) (1994).

43. There is case law holding that the notice must be specific in describing the routine uses that apply to the
system of records for which information is being collected. The degree of specificity is not entirely clear, and
legal judgments are required about the sufficiency of the disclosure. See Covert v. Harrington, 876 F.2d 751 (9th
Cir. 1989) and United States v. Wilber, 696 F.2d 79 (8th Cir. 1982).

44. The Commission uses many standard government-wide forms in the conduct of its business. These forms
originate with other agencies (e.g., Office of Personnel Management). The forms that I saw contained Privacy
Act notices. It is appropriate for the Commission to rely on the notices prepared by other agencies and on their
judgment about the need for and content of Privacy Act notices on these standard forms.

45. The certification states that information on the application is public information subject to complete disclosure.
The public disclosure of the home address and automobile identifying information for agency personnel is unusual.
The disclosure of home address and vehicle information would not be routinely required under the Freedom of
Information Act. If disclosures are made to assist in finding additional members for a carpool (from within or
without the agency), that would not be the same as a public disclosure. Also, depending on how the search for
other riders is conducted, general disclosure of home addresses might be avoided if matching is conducted by a
third party.
          Regardless, once a system of records is established for parking applications, the system notice will have
to include a routine use covering those disclosures that are actually made. If the records are, in fact, disclosable
publicly, it would be necessary to defme such a routine use in order to lawfully make the disclosure and to include
that information in the Privacy Act notice on the application form. However, unless there is a specific law or
policy that mandates these disclosures, the form itself might be revised and the disclosure note removed or revised
to reflect actual practice and policy.

46. 5 U.S.C. §552a(u) (1994).

47. Id. at §552a(o).

48. The Directive defming the mission and functions of the Director of the Office of Personnel provides that the
Director "serves as the Privacy Act Officer. No specific duties are identified for this responsibility. USITC
                                             It


Directive 1023.1 (2/27/93). Nothing in the Act or in OMB guidance defines the responsibilities of an agency
Privacy Act officer or requires that an agency have a Privacy Act Officer.

49.5 U.S.C. §552a(l)(2) (1994).

50. Id. at §552a(g).

51. Id. at §552a(g)(l)(D).

52. Id. at §552a(b)(1l).

53. See Doe v, Stephens, 851 F.2d 1457 (D.C. Cir. 1988).

54. "To opposing counsel, a court magistrate or administrative tribunal in the course of a legal proceeding, and to
opposing counsel in the course of discovery proceedings for the purpose of enforcing or prosecuting a violation or
potential violation of law, whether civil, criminal, or regulatory in nature, and whether arising by general statute
or particular program statute, or by regulation, rule, or order issues pursuant thereto."




                                                         32
                                                  Appendix




UNrrED ST/\TES IN'TERN,\'fIONAL TRADE COMMISSION

                 W;\SI t11'H :TUN, DC 204:m



September 3D, 1996



MEMORANDUM


TO:      Inspector General

FROM:    Director, Office of Personnel T,.YtI-~{£~
                                              j
SUBJECT: Final Response to Inspector Generalis
         Draft Report: Analysis of USITC's
         Privacy Act Systems of Records

I have reviewed the subject report and I find it
to be a thorough and thoughtful critique of
Privacy Act implementation within the agency.
Its major findings, i.e. those relating to the
adequacy of existing systems of records and their
proper notice -- comport with those identified by
agency personnel. prior to this audit and the
General Counsel had already expended considerable
resources in drafting revisions to ITC Systems
Notices.    Based on discussions with the GCls
office, it is my impression that Mr. Gellman's
knowledgeable recommendations will be extremely
helpful· in completing the revisions.

Significantly, the audit report points out that
Commission policy has never defined and assigned
responsibility for Privacy Act administration.
While the Director of Personnel has carried the
title of Privacy Act Officer for many years, the
report makes clear that no corresponding duties
have ever been delineated for such a function and
underscores the fact that nothing in the Privacy
Act nor OMB guidance defines the responsibilities
of a Privacy Act Officer or requires that an
agency" have one. So far as I am aware, the only
articulated responsibilities regarding the Act,
which are found in 19 CFR Part 201, subpart D, are
Page 2


disclosure duties assigned to the Director of
Personnel, not to the Privacy Act Officer.   In
fact, it appears that the limited disclosure
responsibility originally assigned to the Director
of Personnel led to a later designation as Privacy
Act Officer,  notwithstanding that the term is
without content in Commission policy or
directives.

With regard to the far more important aspects of
privacy administration such as the identification
and publication of systems of records, no
Commission policy has ever existed, nor have such
responsibilities ever been assigned. However, a
great deal of very important work has already been
accomplished on this front and is currently
ongoing.   I am informed by the General Counsel1s
Office that the redraft of the Commission's
systems of records and proposed revision of the
Commission's Privacy Act rules is in an advanced
stage.   I think that Office is to be commended for
voluntarily responding to a need which is simply
confirmed by this study.

The OGC1s work will in fact accomplish the
majority of needed actions identified in the
report.  However, there will still be a need for
someone to implement those recommendations of a
more administrative nature.

Both the 1G and Mr. Gellman, author of the study,
admit that there is no lInatural fit" for Privacy
Act responsibilities in small agencies, where they
are generally assigned as collateral duties. Mr.
Gellman commented, for instance, that F01A and
Privacy are often combined in such environments
and the" 1G acknowledged that there is a legitimate
issue of where Privacy Act responsibilities should
be lodged in the Commission. However, in order to
avoid any delay in implementing the study1s
recommendations, she recommends assigning audit
implementation to the Director of Personnel, in
effect tabling what is the threshold issue of
deciding who should be the Privacy Act Officer.
The urgency of this matter should be carefully
evaluated.    First, the report makes quite evident
that the agency has little serious vulnerability
in this matter.   Secondly, the Gels office is
already addressing the most important
recommendations, thereby reducing further the
possibility that needed action will languish.
Page 3


Finally, whoever is eventually charged with
administrative responsibility will need the
benefit of participating in this program's
implementation, since it will constitute the most
substantive experience anyone assigned to it will
probably ever receive, although the designee will
also need formal training to accomplish effective
implementation.  Consequently, it seems prudent to
avoid letting a somewhat questionable urgency
override careful deliberation about what is, in
effect, an important issue of resource allocation.

Therefore, I recommend that the Chairman review
and determine, as a matter of effective personnel
resource allocation, where Privacy Act
administration should be assigned. This would be
simultaneous with the GC effort to complete the
important work already in progress, which will in
fact form the fundamental framework for successful
Privacy Act administration.   I am happy to assist
in this review and to participate in any capacity,
either as individual adviser or in some joint
evaluative process as designated by the Chairman.

This response and the recommendation contained
herein were approved by the Chairman on this date.




cc:   The Commission
      General Counsel
      Acting Director, Office of Administration
